                                          NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                         ACTION MEMORANDUM

TO: AIGI         /   File Number: 1-99060020

Subject: Case Closeout                                                                       Page 1 of 1


              This is a qui tam case filed under the civil False Claims Act (3 1 U.S.C. $9 3729 et seq.),
      United States ex rel. MJ Research, Inc. v. Avvlera Corp. et al. The only connection to NSF is the
      allegation that U.S. Patent No. 5,171,534 was actually reduced to practice during the period ofNSF
      grant 8500298, giving the federal government certain rights under the Bayh-Dole Act (35 U.S.C.
      $8 200 et seq.;45 C.F.R. part 650). However, the licensee provided compelling evidence that in fact
      the invention was reduced to practice by the licensee before the NSF grant was awarded. Although
      the Department of Justice continues to assess intervention, and the relator continues to pursue the
      case, there are no remaining substantive issues relevant to NSF fbnding or activities. Accordingly, the
      case is closed.




             I        Prepared by:   I            Cleared by:

                     Agent:
  Name:



Signature
   date:
